CHARLES S. LiMANDRI†*
PAUL M. JONNA†
JOHANNA DELEISSEGUES
JEFFREY M. TRISSELL†
B. DEAN WILSON
MILAN L. BRANDON II

POST OFFICE BOX 9120
RANCHO SANTA FE, CALIFORNIA 92067
TELEPHONE: (858) 759-9930
FACSIMILE: (858) 759-9938

PHYSICAL ADDRESS:
16236 SAN DIEGUITO ROAD
BUILDING 3, SUITE 3-15
RANCHO SANTA FE, CA 92091

WEBSITE: www.limandri.com
KATHY DENWORTH
Office Administrator

BRIAN D. MILLER
GREGORY J. ANTHONY
RICHARD SALPIETRA
Of Counsel
*BOARD CERTIFIED CIVIL TRIAL ADVOCATE
ADMITTED TO THE DISTRICT OF COLUMBIA BAR
ADMITTED TO THE NEW YORK BAR
†
ADMITTED TO THE U.S. SUPREME COURT

April 15, 2021
Hon. Scott R. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

South Bay United Pentecostal Church, et al. v. Newsom, et al., No. 20-746

Dear Mr. Harris:
Petitioners write in response to the State-Respondents’ letter dated April 12, 2021, regarding
California’s decision to end “location and capacity limits on places of worship.” As this Court has
now explained several times, California’s withdrawal of the challenged restrictions during
litigation does not give rise to mootness, because California remains free to reimpose the
restrictions at any time. See Roman Cath. Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 68 (2020);
Tandon v. Newsom, __ S. Ct. __, 2021 WL 1328507, at *1 (2021).
Aside from the question of mootness, the Petition merits plenary review because California has
not yet remedied its unconstitutional behavior, in two separate ways. First, in response to a specific
inquiry from Petitioners’ counsel, counsel for the State-Respondents stated in an email dated April
13 that “[t]he State does not foresee re-imposing mandatory capacity restrictions on houses of
worship. The State maintains, however, that it has the authority to impose mandatory capacity
restrictions on activities if necessary to reduce transmission of a deadly and communicable virus
and protect public health in the case of a dramatic surge in COVID-19 cases and deaths caused by
a new variant or other unexpected development, consistent with Supreme Court rulings.” 1 D.C.
Dkt. 125 at 20–21 (emphasis added). Presumably, the County-Respondents would maintain that
they have authority to independently impose such restrictions as well. Cf. Gateway City Church v.
1

See Attachment A.

Hon. Scott S. Harris
April 15, 2021
Page 2
____________________________

Newsom, __ S. Ct. __, 2021 WL 753575 (2021) (enjoining Santa Clara County’s distinct indoor
worship ban).
Given California’s “track record of ‘moving the goalposts’,” Tandon, __ S. Ct. __, 2021 WL
1328507, at *2 (quoting S. Bay United Pentecostal Church v. Newsom, 141 S. Ct. 716, 720 (2021)
(“S. Bay II”) (statement of Gorsuch, J.)), while claiming its restrictions on houses of worship are
“consistent with Supreme Court rulings”—a claim this Court has already rejected five times, id.—
there is still clearly a need for definitive guidance from this Court on the precise question of “the
other disparate occupancy caps applicable to places of worship, particularly in ‘Tiers’ 2 through
4.” S. Bay II, 141 S. Ct. at 719 n.1 (statement of Gorsuch, J.). Otherwise, it is entirely likely that
California, citing “a new variant or other unexpected development,” will “reinstate those
heightened restrictions at any time,” Tandon, __ S. Ct. __, 2021 WL 1328507, at *2, either in their
current form or some other form transgressive of the Free Exercise Clause.
Second, the Petition also presents the question of the validity of California’s prohibition on singing
at worship services, which California has not yet remedied, and the Court has not yet addressed.
See Pet. 19, 34–36, 40; S. Bay II, 141 S. Ct. at 719–20 & n.2 (statement of Gorsuch, J.) (noting
that the Court did not address the singing ban). California has changed its assertions about what
singing it has and has not restricted indoors at church. Before South Bay II was decided, citing
only its guidance for private gatherings dated November 13, 2020, California told both this Court
and the Ninth Circuit that the guidance supplies an indoor singing ban in “all indoor activities,
sectors, and private gatherings.” Consolidated Opposition, Nos. 20A136, 20A137 at 51 & n.51
(Jan. 29, 2021); see also C.A.9 No. 20-56358, ECF No. 28, at 58 (Jan. 7, 2021) (same). The Ninth
Circuit apparently was convinced that California prohibited singing in “all indoor activities.”
S. Bay United Pentecostal Church v. Newsom, 985 F.3d 1128, 1151 (9th Cir. 2021). And this Court
declined to issue an injunction pending certiorari against California’s congregational singing ban,
apparently based on the same representation that the private gatherings guidance created a blanket
singing ban. See S. Bay II, 141 S. Ct. at 717 (Barrett, J., concurring).
But California has now changed its tune. In the Tandon litigation, California told the Court that its
private gatherings guidance does indeed apply only to “private gatherings” indoors and not across
the board to all indoor gatherings: “Instead, more specific guidance and protocols regulate when,
where, and how [other] types of activities may be held.” See Opposition, Tandon v. Newsom, No.
20A151, at 5–7 (Apr. 8, 2021). In other words, California now agrees with Petitioners’
characterization of its singing regime as providing unique and disparate singing restrictions for
private gatherings, restaurants, schools, the music and film industries, protests, and worship
services (and no singing restrictions for any other activities), Application, No. 20A136 at 22–23
(Jan. 25, 2021), all of which are in the record. See C.A.9 No. 20-55533, ECF No. 89, at 17 n.6
(Nov. 12, 2020). On that score, along with its letter to the Court of April 12, California now
provides the Court with its most recent “Industry Guidance” for “Places of Worship and cultural

Hon. Scott S. Harris
April 15, 2021
Page 3
____________________________

ceremonies.” That guidance shows that, on February 24, 2021, California modified its restrictions
on singing in church to only allow singing by “performers,” defined as singers who “sit or stand
separately from the visitors or congregants. . . .” State-Respondents’ Apr. 12 Letter at Attch. p. 7. 2
Thus, the record is now far clearer than it was at the time South Bay II was decided: California
does not restrict indoor singing “across the board,” but has distinct regulations for distinct
activities, and allows “performers” to sing indoors but not religious congregations. This second
issue thus remains very much alive, and the Court can provide much needed guidance on
California’s disparately applied singing restrictions.
Finally, should the Court deem it advisable not to grant plenary review on these remaining issues,
it should nevertheless grant the Petition, vacate the decisions below, and remand for further
proceedings in light of Tandon.
We respectfully request that this letter response be circulated to the Justices for their review in
connection with the upcoming conference in this case.
Sincerely,
LiMANDRI & JONNA LLP

Charles S. LiMandri

2

This expedient adjustment led to denial of an application for a preliminary injunction in Calvary Chapel
of Ukiah v. Newsom, No. 2:20-cv-01431-KJM-DMC, 2021 WL 916213, at *12 (E.D. Cal. Mar. 10,
2021). The Ukiah case shows that California’s February 24 update was attempting to create more of an
appearance of neutrality, but without showing that banning congregational singing is the least restrictive
means of curbing the spread of COVID-19. See id. at *9.

ATTACHMENT A

From:
To:

Subject:
Date:
Attachments:

Todd Grabarsky
Paul Jonna; Jeffrey Trissell; Kathy Denworth; Jeffrey.Michalowski@sdcounty.ca.gov;
valerie.palid@sdcounty.ca.gov; diana.gaitan@sdcounty.ca.gov; mmeuser@dhillonlaw.com;
docketing@thomasmoresociety.org; tbrejcha@thomasmoresociety.org; harmeet@dhillonlaw.com;
hkchoi@dhillonlaw.com; htoschi@dhillonlaw.com; pbreen@thomasmoresociety.org;
timothy.white@sdcounty.ca.gov; Lisa Plank; cferrara@thomasmoresociety.org; Anna Ferrari; Daniel Lucas;
Kathryn Megli; Charles Limandri; Milan Brandon; Paul Stein; Helen Hong; Samuel Harbourt
Re: South Bay United Pentecostal Church v. Newsom
Tuesday, April 13, 2021 11:55:00 AM
image001.png

Dear Paul,
State Public Health officials have lifted all mandatory capacity restrictions on houses of worship and
plan to lift all current capacity restrictions on June 15. The State does not foresee re-imposing
mandatory capacity restrictions on houses of worship. The State maintains, however, that it has the
authority to impose mandatory capacity restrictions on activities if necessary to reduce transmission
of a deadly and communicable virus and protect public health in the case of a dramatic surge in
COVID-19 cases and deaths caused by a new variant or other unexpected development, consistent
with Supreme Court rulings.
Sincerely,
Todd Grabarsky
Deputy Attorney General
California Department of Justice
Office of the Attorney General
300 S. Spring St., Ste. 1700
Los Angeles, CA 90013
(213) 269-6044

From: Paul Jonna <pjonna@limandri.com>
Sent: Tuesday, April 13, 2021 7:13 AM
To: Todd Grabarsky; Jeffrey Trissell; Kathy Denworth; Jeffrey.Michalowski@sdcounty.ca.gov;
valerie.palid@sdcounty.ca.gov; diana.gaitan@sdcounty.ca.gov; mmeuser@dhillonlaw.com;
docketing@thomasmoresociety.org; tbrejcha@thomasmoresociety.org; harmeet@dhillonlaw.com;
hkchoi@dhillonlaw.com; htoschi@dhillonlaw.com; pbreen@thomasmoresociety.org;
timothy.white@sdcounty.ca.gov; Lisa Plank; cferrara@thomasmoresociety.org; Anna Ferrari; Daniel
Lucas; Kathryn Megli; Charles Limandri; Milan Brandon; Paul Stein
Subject: Re: South Bay United Pentecostal Church v. Newsom
Dear Todd:
In case my email below wasn’t clear, we require a response to my question below by 12pm PDT
today. If we don’t hear from you or your response is qualified and uncertain, we will proceed with
the assumption (based on past experience) that the State believes it has the right to reimpose the
challenged restrictions at any time in the future.
Thank you.

Paul M. Jonna | Partner
LIMANDRI & JONNA LLP | P.O. Box 9120 | Rancho Santa Fe, CA 92067
Tel: (858) 759-9930 |Direct: (858) 759-9133 |Fax: (858) 759-9938
pjonna@limandri.com | www.limandri.com
This communication (including any attachments) contains confidential information protected by the
attorney-client privilege and/or attorney work-product privilege intended only for a specific
person(s) or entity(ies) named as the recipient(s). If you are not the intended recipient(s), you should
delete this communication and/or shred the materials and any attachments and are hereby notified
that any disclosure, copying, use or distribution of this communication, or the taking of any action
based in it, is strictly prohibited by law.
From: Paul Jonna
Sent: Monday, April 12, 2021 9:59:19 PM
To: Todd Grabarsky <Todd.Grabarsky@doj.ca.gov>; Jeffrey Trissell <jtrissell@limandri.com>; Kathy
Denworth <kdenworth@limandri.com>; Jeffrey.Michalowski@sdcounty.ca.gov
<Jeffrey.Michalowski@sdcounty.ca.gov>; valerie.palid@sdcounty.ca.gov
<valerie.palid@sdcounty.ca.gov>; diana.gaitan@sdcounty.ca.gov <diana.gaitan@sdcounty.ca.gov>;
mmeuser@dhillonlaw.com <mmeuser@dhillonlaw.com>; docketing@thomasmoresociety.org
<docketing@thomasmoresociety.org>; tbrejcha@thomasmoresociety.org
<tbrejcha@thomasmoresociety.org>; harmeet@dhillonlaw.com <harmeet@dhillonlaw.com>;
hkchoi@dhillonlaw.com <hkchoi@dhillonlaw.com>; htoschi@dhillonlaw.com
<htoschi@dhillonlaw.com>; pbreen@thomasmoresociety.org <pbreen@thomasmoresociety.org>;
timothy.white@sdcounty.ca.gov <timothy.white@sdcounty.ca.gov>; Lisa Plank
<Lisa.Plank@doj.ca.gov>; cferrara@thomasmoresociety.org <cferrara@thomasmoresociety.org>;
Anna Ferrari <Anna.Ferrari@doj.ca.gov>; Daniel Lucas <Daniel.Lucas@doj.ca.gov>; Kathryn Megli
<Kathryn.Megli@doj.ca.gov>; Charles Limandri <climandri@limandri.com>; Milan Brandon
<mbrandon@limandri.com>; Paul Stein <Paul.Stein@doj.ca.gov>
Subject: RE: South Bay United Pentecostal Church v. Newsom
Dear Todd:
I see that you notified the U.S. Supreme Court of the revisions to CA’s guidance on places of worship.
As you know, the Supreme Court held the following in Tandon v Newsom:
“Fourth, even if the government withdraws or modifies a COVID restriction in the
course of litigation, that does not necessarily moot the case. And so long as a case is
not moot, litigants otherwise entitled to emergency injunctive relief remain entitled
to such relief where the applicants “remain under a constant threat” that
government officials will use their power to reinstate the challenged restrictions.”
Does the governor maintain that he retains the power to reimpose the challenged restrictions if he
deems it necessary? Please advise by 12pm PDT so that we can inform the Supreme Court of the
State’s position and decide how best to proceed with the upcoming evidentiary hearing.

Thank you.
Paul M. Jonna | Partner
LIMANDRI & JONNA LLP | P.O. Box 9120 | Rancho Santa Fe, CA 92067
Tel: (858) 759-9930 |Direct: (858) 759-9133 |Fax: (858) 759-9938
pjonna@limandri.com | www.limandri.com

This communication (including any attachments) contains confidential information protected by the attorney-client privilege and/or
attorney work-product privilege intended only for a specific person(s) or entity(ies) named as the recipient(s). If you are not the intended
recipient(s), you should delete this communication and/or shred the materials and any attachments and are hereby notified that any
disclosure, copying, use or distribution of this communication, or the taking of any action based in it, is strictly prohibited by law. If you
receive this transmission by error, please notify us by telephone immediately. Thank you.

